                                                              -
                                     CLOSEOUT FOR M96010001

        This case came to OIG on January 23, 1996, when we received a letter and
supporting documentation from ~r.-                     (the complainant), formerly a
graduate student - a                          The complainant made various allegations
against Dr.             (the subject), who was his dissertation advisor at the university.
6 e subject was PI on NSF award-,                  entitledb-w
     -
involved
     !!!!rehtona
                                              -                     One allegation
                         graduate student of the s u b j e c t , (the other student).

       The complainant alleged that the subject had committed misconduct by claiming
coauthorship of two conference           that the complainant had written. OIG
determined that the subject had initiated the research reported in the two papers and
secured NSF funding for it. We further determined that the research was carried out
under the subject's direction and along lines projected in the subject's NSF proposal.
OIG concluded that under these circumstances the subject's claim of coauthorship could
not be considered a serious deviation from accepted practice and that the allegation
lacked substance.

       The complainant alleged that the subject refused to use grant funds to enable the
complainant to attend a conference and present their joint work. OIG decided that the
subject had no obligation to do so and that the subject's refusal could not be considered
misconduct in science.

       The complainant also alleged that the subject's proposal to NSF misappropriated
work that the other student did for his Ph.D. dissertation. OIG examined the proposal
and determined that the other student's contributions were acknowledged in the
proposal and that the proposal was submitted to NSF before the dissertation was




                      -
approved and while the other student was working under the subject's direction. We




                                                                                                 -
concluded that this allegation lacked substance.



1
    The papers
        - -    are entitled   -     -             -   -   -                           -    and
t             -                                                            9 Both were submitted for
presentation at the                                                    -meetings
                                           >under the complainant's name, withdrawn, and subsequently
resuF&ttetedd with the s-t        listed as a coauthor.


                                             Page 1 of 3
                            CLQSEOUT FOR M96010001

       The complainant alleged that the subject published a paper in two different
places. He supplied copies of the two publications. OIG determined that there were
enough differences between the two papers that publishing both of them as parts of the
proceedings of different professional conferences could not be considered misconduct in
science.

         The complainant alleged that the subject caused arbitrary delays before the
complainant's dissertation could be accepted. The complainant did not link this alleged
misconduct to the subject's NSF related activities. Because the evidence the
complainant supplied indicated that the delays were brief and could not have affected
the complainant's graduation date, OIG concluded that the allegation did not rise to the
level of misconduct and did not seek further evidence as to whether we had jurisdiction
over it.

        The complainant alleged that he had been treated badly by the university after
he made complaints about the subject. OIG examined the evidence the complainant
provided to determine whether it provided substantial reason to believe that any person
had committed misconduct in science by retaliating against a whistleblower. We
concluded that the written evidence provided by the subject gave no indication that he
had been subject to retaliation. We determined that university officials repeatedly
urged the complainant to provide the evidence necessary for the university to inquire
into his allegations and did not threaten him in writing. Although, in the material the
subject sent to OIG, he alleged that he had been threatened, he was unable, when we
questioned him,to supply any evidence to support this allegation. OIG concluded that
there was no substantial evidence that the subject had been threatened or penalized for
making his allegations.

        Among the materials that the complainant supplied to OIG was a copy of a letter
from his department head to him threatening to suspend inquiry into the complainant's
allegations if the complainant did not cease violating an agreement with the university
by publicizing the allegations. OIG decided that the department head's action was
inappropriate. When we closed the case, we wrote to the university's authorized
organizational representative, who oversees compliance with NSF regulations,
informing him that the purpose of misconduct inquiries was to ensure the integrity of
the research and that such inquiries therefore needed to go forward regardless of the
complainant's alleged misbehavior. We asked the authorized representative to inform
department heads and other responsible administrators at the university of their
obligations in situations such as this.

      The complainant's other allegations involve discourtesy or incompetence in
mentoring, and not misconduct in science. OIG did not consider these allegations.

        The complainant alleged that the subject drew a summer salary from his NSF
grant for 1995 despite having spent the summer on vacation in a foreign country. OIG
investigators found that the evidence did not support the allegation.

                                  Page 2 of 3     .                        M96-01'
                     CLOSEOUT FOR M96010001


This inquiry is closed and no further action will be taken on this case.




                            Page 3 of 3
